Washington, D.C. 20530

October 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Lamont K. Gaines v. United States of America,
S.Ct. No. 20-294

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 9, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on November 2, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0294
GAINES, LAMONT K.
USA

DANIEL MATTHEW SULEIMAN
COVINGTON & BURLING LLP
ONE CITYCENTER, 850 10TH STREET, NW
WASHINGTON, DC 20001
202-662-5811
DSULEIMAN@COV.COM

